U.S. Department of                        The Inspector General   Office of Inspector General
Transportation                                                    Washington, DC 20590
Office of the Secretary
of Transportation



 July 27, 2006

 The Honorable Michael E. Capuano
 U.S. House of Representatives
 1530 Longworth House Office Building
 Washington, DC 20515-2108

 Dear Representative Capuano:

 We are writing to you and the other Members of the Massachusetts congressional
 delegation regarding your July 18, 2006 request concerning the recent fatal
 accident in a section of the Central Artery/Tunnel Project (CA/T). Separate from
 the National Transportation Safety Board’s investigation into the cause of the
 accident which they are performing at your request, you have also called for a
 comprehensive safety review and asked us to provide independent oversight of that
 review. Acting Secretary Maria Cino has also requested that we provide oversight
 as the safety review moves forward.

 The Commonwealth has announced plans to conduct a “stem to stern” review of
 the project and the State Legislature has provided authority and financial support
 for that review. The details of that review have not yet been defined. For example,
 the recently-enacted State law appropriated $20 million to perform a
 “comprehensive critical infrastructure safety audit of any and all tunnels” that are
 part of the metropolitan system. In our view, a comprehensive safety review of the
 CA/T project should examine more than just the tunnel infrastructure. We believe
 a comprehensive review would necessarily encompass the entire project, including:

     ¾ Physical infrastructure (tunnels, bridges, ramps, and roadways),

     ¾ Mechanical and electrical systems (including fire, emission detection, and
       ventilation equipment), and

     ¾ Integrated project control systems (including security, emergency response
       communications, and closed circuit TVs).
                                                                                    2


We have been in contact with the Massachusetts Department of Transportation and
the Federal Highway Administration to provide our recommendations with respect
to the elements of a comprehensive review and those efforts to define the
appropriate scope of the review are continuing.

We plan to provide independent oversight of the activities performed by the
Massachusetts Executive Office of Transportation and the Federal Highway
Administration in the planned safety reviews. Our intent is to provide assurance to
Acting Secretary Cino, Congress, and most importantly, the public, that these
reviews are performed in a rigorous and complete manner. To that end, we will
report periodically on the progress being made and provide any observations and
recommendations that we have about the process.

Our initial plans are to exercise this independent oversight in several overlapping
phases, including reviews of: the scope of the effort; study approaches and safety
inspection protocols; inspection activities; inspection and test results; reports; and
recommended corrective actions.

In carrying out these tasks, we anticipate that the State’s comprehensive safety
review will apply a risk-based approach to prioritize systems’ components posing
the highest risk to the traveling public. One key element of the risk based approach
should be a review of design, engineering, and construction documents to identify
risk areas. Another will be inspections and tests of key project components.

To accomplish our oversight activities, we will redeploy and reassign staff in our
investigative, audit, and engineering units. However, it will be necessary to
supplement our capabilities in certain areas, such as with specialized engineering
expertise acquired from the Army Corp of Engineers or another independent
source. To provide the type of robust oversight required for such an effort, we
estimate that our office will require additional funding in the order of $2 million.
Since our appropriation does not set aside special funding for emergencies, we will
need to work with the Department and Congress to obtain the resources necessary
to carry out our oversight activities and would appreciate your support in that
regard.

Finally, we also wanted to make you aware that our Special Agents are currently
participating with the United States Attorney and the Massachusetts Attorney
General in their investigations. Further, we remain an active member of the United
States Attorney's Big Dig Task Force.

We will keep you and the other delegation members informed of the status of our
efforts and any significant matters we might identify as we proceed.
                                                                         3


Should you have further questions, please do not hesitate to contact me at
(202) 366-1959.

Sincerely,




Todd J. Zinser
Acting Inspector General
